Appendix B
Sentencing Order of the Johnson County District Court for the State of Nebraska
Dated June 1, 2018

IN THE DISTRICT COURT OF JOHNSON COUNTS, NEBRASKA
STATE OF NEBRASKA,

Case No. CR 17-17

Plaintiff,
V.

ORDER OF SENTENCE

PATRICK W. SCHMOEDER,
Defendant.

I. CASE HISTORY
Patrick W. Schroeder (die "Defendant ) was origmally charged with certain crimes in the
County Court ofJohnson County, Nebraska. An order entered on April 24,2017, by County Judge
Steven Timm appointed the Nebraska Commission for Public Advocacy, by Ms. Sarah P. Newell
and Mr. Todd W. Lancaster, to represent the Defendant in this matter. This matter was bound over
from the County Court to the District Court on May 3, 2017. An order entered by this Court on
May 3, 2017, appomted fhe Nebraska Attorney General and his designated Assistant Attorneys
General as Special Deputy County Attorneys. An Information was subsequently filed on June 9,
2017, charging the Defendant with Count I, Murder-First Degree, a Class I or IA Felony, Neb.
Rev. Stat §28-303(1), and Count II, Use of Weapon to Commit a Felony, a Class II Felony, Neb.
Rev. Stat. §28-1205Cn.

On July 28, 2017, this matter came on for a hearing on the request of the Defendant to
dismiss counsel and represent himself, The Defendant was present with appointed counsel Ms.
Sarah Newell and Mr. Todd Lancaster. The State was represented by Mr. Douglas Wamer, Mr.
Michael Guuian, and Mr. Richard Smith. Tbe Court made inquiry and found, beyond a reasonable
doubt, that the Defendant was competent to waive his right to counsel, and that his decision to
waive counsel and represent himself was made freely, voluntarily, knowingly, and intelligently.
The attorneys appomted to represent the Defendant were discharged and Ms. Newell and Mr.
Lancaster were then appointed to act as standby counsel. The Defendant represented himself for
the remainder of the hearing, with Ms, Newell and Mr, Lancaster standing by. The Defendant next
withdrew his pending Motion to Quash. Hie Defendant then requested that he be given leave to
withdraw his prior plea of not guilty. Leave was granted by the Court.

1

FILED
JUN 12018
.KATHLEEM X NIEVEEN

000075928057'

CLERK Of OIST.CQURfJoC^E

The Defendant was then re-arraigned and entered a plea of guilty to the pending charges.
Inquiry was made as to his ability to understand the proceeding, he was advised of his rights, a
factual basis was established and he was advised of the consequences of entering a plea* The Court
made mquiry and found, beyond a reasonable doubt, that the Defendant was competent to plead
guilty, that his decision to plead guilty was made freely, voluntarily^ knowingly, and intelligently.
The Court accepted tl-ie plea of guilty offered by the Defendant to the pending charges: Count I,
Murder-First Degree, and Count II, Use of a Weapon to Commit a Felony. The Defendant was
then found guilty of those charges beyond a reasonable doubt No bond was set as the Defendant
is serving another sentence at the Tecumseh State Correctional Institution ("TSCI").

At a scheduling hearing held on August 22, 2017, the Defendant waived his right to a jury
determination of the aggravating circumstances as alleged in the Information, pursuant to Neb.
Rev. Stat. §29-2520(3). The Court made inquury and found, beyond a reasonable doubt, that the
Defendant was competent to waive his right to a jury determinatLon of the aggravating
circumstances, and that his decision was made freely, voluntarily, knowingly and intelligently.
Pursuant to Neb. Rev. Stat. §29-2521(l)(a), a request was made to Michael G. Heavican,
Chief Justice of the Nebraska Supreme Court, to appoint a panel for a sentence determination
hearing. By Order of Chief Justice Heavican, dated August 30,20 17, the Honorable John H. Marsh
and the Honorable Robert R. Otte were appointed to sit with the Trial Judge, the Honorable Vicky
L. Jolmson^ as Presiding Judge of the sentencing panel (the "Panel"),
A sentencing detemunation proceeding was held on April 19,2018, pursuant to Neb. Rev.
Stat §29-2521(2). AU three of the Panel members were in attendance, Representing the State was i/vAJL/
Mr. Douglas Wamer, Mr. Michael Guinan, and Mr* Richard Smifh. The Defendant appeared with
standby counsel Ms. Sarah Newell and Mr. Todd Lancaster.
The sentencing determination hearing procedure for a three-judge panel is codified in Neb.
Rev. Sjtati §29-2521(2). Accordingly, the three-judge panel is to take evidence coacernmg
aggravating factors and mitigating factors and hear arguments. Concerning aggravating factors,
the Nebraska Rules of Evidence apply. The Presiding Judge makes determinations of relevant
evidence regarding mitigating factors. After the sentencmg determination hearmg, written fmdmgs
of fact are requu-ed based upon a defendant's finding of guilfj| and the sentencing determmation

^

proceedmg, identifying which, if any» of the alleged aggravatmg ckcumstances have been proven
to exist beyond a reasonable doubt.
The State alleged only one aggravating circumstance: that the Defendant was previously
convicted of another murder or a crime involving use or threat of violence to the person, or has a
substantial prior history of serious assaultive or terrorizing crimmal activity. Neb* Rev. Stat.

§2923(l)(a)* The Panel has limited consideration to that single aggravating cu'cumstance alleged.
At the sentencing determination hearing, the State called Dr. Robert Bowen, Joel Berman,
State Pab*ol Investigator Stacie Lundgren, Dr. MicheIIe EUeff, Steve Wilder, Joseph Eppens and
Joseph Weiner as witnesses. Exhibits 1-36 were offered by the State and received without
objection from the Defendant. After presentation of evidence, argument was had by the State. The
Defendant offered no evidence or arguments.

H.FACTS
Prior to the murder ia this case, the Defendant had been incarcerated and housed at TSCI
on a sentence imposed on August 13,2007. Although housed in a cell intended for one occupant,
the Defendant was asked in March of 2017, if he would consider a roommate due to overcrowding
issues at TSCI. He agreed, but wanted a roommate who he found to be compatible.
Prison officials determined that Terry Berry, Jr. (Mr- Berry)» age 22, would be his
roommate. Mr. Berry had been convicted of the crime of Second Degree Forgery m PIatte County,
Nebraska on November 20,2015. On January 15,2016, Mr, Berry had been convicted of the crime
of Confined Person Violation, contrary to Neb. Rev. Stat. §28-932. Mr. Berry was placed in the
Defendant's cell on April 10, 2017. Mr. Berry was due for release approximately two weeks after

being placed in the cell of the Defendant.
The facts about the death of Mr. Berry are taken generally from the statements made by

the Defendant to prison staff after the killing and from the voluntary confession of the Defendant
given on April 17, 2017, to State Patrol Investigator Stacie Lundgren. The Defendant described
Mr. Berry as a constant talker, with extremely poor hygiene habits. The Defendant would attempt
to dissuade Mr. Berry from talking and urge him to clean up after himself. On Thursday, April 13,
2017, the Defendant decided that if Mr. Berry was not moved by the next day, that "something

was gonna happen." (Interview with Investigator Lundgren.) There is ofher evidence that suggests
that the Defendant may have made up his mmd to kill Mr. Berry much sooner.

On Saturday, April 15, 2017, Mr. Berry and the Defendant were watching UFC (Ultmiate
Fighting Championship) on television. According to the Defendant, Mr. Berry <twould not shut
up." The Defendant instructed Mr. Berry to move his chair so fhat Mr. Berry was directly facing
the television and so that Mr. Berry's back was to the Defendant. The Defendant then placed his
arm around Mr. Berry^s neck in a chokehold and locked his hands. He continued to choke Mr.
Berry for about five imnutes, until his arms tired. He then took a nearby towel and used it as a
garrote arovnd Mr. Berry^s neck, contmulng to choke Mr. Berry. After about another five minutes,
the Defendant let up on the towel^because he believed tfaat Mr. Berry was dead. About 30 minutes
later, the Defendant was able to alert a passing guard that Mr. Berry was on the floor. The
Defendant stated that he did not summon the guard for Mr. Berry's benefit but because he wanted
Mr, Berry removed from the cell. The Defendant joked to the guard about watching wrestling and
the murder.

Mr- Berry was transported to a medical facility. He died on April 19, 2017, having been
declared to be brain-dead. Mr. Berry's family donated his organs for transplant. Pathologist
Michelle EUeff, M.D., performed 3Mr. Beny's autopsy. She determined that the Immediate cause
of death was compressional asphyxia, or strangylation< The manner of death was determined to be
homicide.
A search of the Defendant's cell revealed a torn "kite" in the trash. A "kite?* is a form that
inmates use to communicate with prison staff. The kite was dated April 13,2017, and said words
to the effect, ttyou need to get him out of here before he gets hurt."
At the time of his murder, Mr. Berry had seven days left to serve on his sentence.

III. EVIDENCE CONSIDERED BY THE PANEL
In making the Panel's decision, the evidence adduced in support of the defendant's guilt
and the evidence adduced at the sentencing hearing must be considered* Neb. Rev. Stat 29-2921

§(2).

Prior to the sentencing hearing^ the Panel reviewed the evidence adduced at defendants
plea of guilty on July 28, 2017. The evidence presented to this Panel regarding Mr. Albers* murder
was taken largely from the voluntary confession of the Defendant to Nebraska State Patrol officer
Joel Berman (Exhibit 7). The balance of exhibits 1-3^ were also considered.

HI. SENTENCING DETERMINATIONS
Tlie Panel must consider (a) aggravating circumstances, (b) statutory mitigating
circumstances, (c) non-statutory mitigating circumstances and (d) proportionality. Those factors
are considered, m that order, below. The Panel notes that in assessing fhe weight to be given to the
aggravating factors and mitigating factors, the Panel does not use a numerical process but applies
reason and judgment. State v. Moore, 210 Neb. 457 (1982).
A. Aeeravatine Circumstances
Aggravating circumstances must be proven beyond a reasonable doubt. State v. Victor^ 235

Neb. 770, 784 (1990). Neb. Rev. Stat §29-2521(2).
In the Information, the State alleged one aggravating factor: that Defendant Patrick
Schroeder was previously convicted of another murder or a crime involving use or threat of
1"I

violence to the person, or has substantial prior history of serious assaultlve or terrorizing criminal
activity. The Panel has limited the review of aggravating factors to the single aggravating factor
charged.
In Moore, supra, the Nebraska Supreme Couit defines prior history as"...the individual's
past acts preceding the incident for which he is on trial and ^substantial',..refers to an actual,
material and important history of acts of terror of a criminal nature. It does not refer to the particular
incident involving the homicide for which he is subject to sentence." Id. at 471.
In 2006, the Defendant committed the murder of 75-year-old Kenneth Albers ("Mr.
Albers"). Mr. Albers owned a farm and formerly employed the Defendant. The motivation for tfie
murder was financial gain; based on his prior employment by Mr. AIbers, the Defendant believed
that Mr. Albers had several thousand dollars in cash located in a lockbox in his home.

At approximately 3:50 a.m. on April 14,2006, the Defendant left his wife at home in bed
and drove to Mr. Albers' farmsteacL The defendant rang the doorbell and entered the home, waking

Mr. AIbers. The Defendant demanded money, utilizing threats and a blow to the head to compel
Mr. Albers to cooperate. The Defendant used a mghtstlck to inflict the blow and there was a
significant amount of blood found about the house. During these events, Mr. Albers had recognized
the Defendant and called him by name.
After the lockbox was opened, the Defendant took Mr. Albers outside to an adjacent shop
when Mr. Albers turned toward the Defendant. Using the nightstick, the Defendant struck Mr.
Albers four or five times. After Mr. Albers fell to the floor, the Defendant dragged him out of the
shop, tied him up with battery cables and placed hhn into the back of Mr, Albers' own pickup. The
Defendant then drove Mr. Albers to an abandoned well on Mr. Albers' property, where he dumped
Mr. Albers into the well. According to the Defendants confession, Mr. AIbers was alive at the
time that he was shoved in the well.

The Defendant admitted that he probably made the determination to kill Mr. Albers a few
days before the robbery; this is evidenced by the fact that he brought along additional clothes to
wear. He clearly made that decision once they got into the shop.
The Defendant then cleaned up, dumped the clothes that he was wearing, drove home and
made a pot of coffee, After his wife awoke and went to work, the Defendant took the several
thousand dollars that he had taken from Mr. Albers and drove around the area, paying off bills and
making purchases. The Defendant was arrested shortly thereafter and he made a voluntary
confession to law enforcement.
Pathologist Robert Bowen, M.D., conducted an autopsy of Mr. Albers. He observed
evidence of nine head injuries. Dr. Bowen concluded that Mr. Albers died of blunt force trauma to
the head. Mr. Albers had a number of defensive wounds that were consistent with the admissions
of the Defendant and the autopsy evidence.

The Defendant was found guilty of First Degree Murder (felony murder with the predicate
crime being robbery). Use of a Deadly Weapon to Commit a Felony, and Forgery in the 2nd Degree
by a Jury on June 15, 2007. Such finding, by law, was beyond a reasonable doubt. He was given
a life sentence for the murder of Mr. Albers. In the same case, the Defendant was convicted of a
second charge. Use of a Weapon to Commit a Felony, in which he received a sentence of 20 years
to 20 years one hour on tlie second offense. It was ordered to nm consecutively to the first charge.

On a second case related to the first case, the Defendant was convicted of Forgery in the 2nd Degree.
He received a sentence of 30 years to 60 years and such sentence was ordered to run consecutively
to Counts I and U. He was found to be a habitual criminal.

Accordingly, the Panel finds that the aggravating circumstance alleged by the State has
been proven beyond a reasonable doubt. The Panel finds that there is an aggravating circumstance
as defined by law sufficient to support the death penalty.
B. Statutory Mitisatine Circumstances
The mitigating circumstances as set forth in Neb. Rev. Stat. §29-2523(2) are viewed by the
Panel based upon the evidence presented at the sentencing determination proceeding and the
fmding of guilt. Further, the Panel considered the Preseatence Investigation ("P8I") that has been

prepared in this case. State v. Bjorldund, 258 Neb. 432, 484 (2000); "The State requested and the
trial court agreed that the PSI report could be used to establish any statutory or non-statutory
mitigating factor, but not aggravating factors.
The State was allowed to present evidence that is probative of the non-existence of
statutory or non-statutory mitigating circumstances, and did so. Similarly, the Defendant was
allowed to present evidence that is probative of the existence of a statutory or non-statutory
mitigating circumstance. State v. Reeves, 234 Neb. 711, 738 (1990). The Defendant chose not to
present any evidence or argument on his behalf.

The statutory mitigating factors and the findings of the Panel are as follows:

1. THE DEFENDANT HAS NO SIGNIFICANT HISTORY OF PRIOR CRIMINAL
ACTIVITY.
The Panel does not find any evidence of this mitigating circumstance.

2. THE DEFENDANT ACTED UNDER UNUSUAL PRESSURE OR INFLUENCES OR
UNDER THE DOMINATION OF ANOTHER PERSON.
The Panel does not find any evidence of this mitigating circumstance.

3. THE CRIME WAS COMMITTED WHILE THE OFFENDER WAS UNDER THE
INFLUENCE OF EXTREME MENTAL OR EMOTIONAL DISTURBANCE.
The Panel does not find any evidence of this mitigating circumstance.

4. THE AGE OF THE DEFENDANT AT THE TIME OF THE CRIME.

At the time of the commission of the crime, the Defendant was 39 years of age. The Panel
has considered the evidence of the Defendant's age but does not fmd the Defendant's age to be a
mitigating circumstance in this case.

5. THE OFFENDER WAS AN ACCOMPLICE UST THE CRIME COMMITTED BY
ANOTHER PERSON AND fflS OR HER PARTICIPATION IS RELATIVELY MINOR.
The Panel does not find any evidence oftliis mitigating circumstance.

6. THE VICTIM WAS A PARTICIPANT IN THE DEFENDANTS CONDUCT OR
CONSENTED TO THIS ACT.
The Panel does not find any evidence of this mitigating circumstance.

7. AT THE TIME OF THE CRIME, THE CAPACmT OF THE DEFENDANT TO
APPRECIATE THE WRONGFULNESS OF HIS OR HER CONDUCT OR TO CONFORM HIS
CONDUCT TO THE REQUIREMENTS OF LAW WAS IMPAIRED AS THE RESULT OF
MENTAL ILLNESS, MENTAL DEFECT OR mTOXICATION.
The Panel does not find any evidence of this mitigating circumstance.
In sum, the Panel does not fmd that any of the mitigating circumstances as defined by Neb.

Rev. Stat §29-2523(2) exist.
C. Non-statutory Mitisating Circumstaaces
Over the course of time, the Nebraska Supreme Court has also considered a number ofnonstatutory mitigating factors. In State v. Moore, 210 Neb. 457 (1982), the Nebraska Supreme Court
specifically declared that the defendant could offer, on the issue of mitigation, any evidence, even
though the mitigating factor ofTered was not specifically listed m the statute.
See, for example:

o State v. Sandoval, 280 Neb. 309 (2010) (bad childhood resulting from being
raised in a dysfunctional family setting),
o State v. Veto, 279 Neb. 94 (2010) (disadvantaged upbringing, borderlme
intellectual functioning, and being a follower of a charismatic leader),

o State v. Hochstein, 262 Neb. 311 (2001) (emotional and intellectual
immaturity and a history of being easily influenced or led),
o State v. S.eeves, 239 Neb. 419 (1991) (ncmviolent nature, passive person,

out of character and lack of memory at the time of the crime),

o State v. Otey, 236 Neb, 915 (1991) (upbringing and psychiatric history),
o State v. Victor, 235 Neb. 770 (1990) (conduct during prior incarcerations).
The Nebraska Supreme Court has stated that "the Constitution does not require the
sentencing judge or judges to make specific written findings with regard to non-statitory
mitlgatmg factors." Reeves, supra, at 741, judgment vacated, 498 U.S. 964 (1990); BjorUwd,
supra, at 481. However, for completeness, the Panel notes the consideration of the non-statutoiy
mitigatmg factors outlined in the cases set forth above as well as other facts and circumstances that
one might argue mitigate in favor of the Defendant.

After considering all evidence and the PSI, the Panel makes the following findingS'egarding
non-statutory mitigating circumstances:
1. The Defendant pleaded guilty to the charge of Murder, thus sparing Mr. Berry's family
the trauma of a trial. Johnson County was also spared the expense of a trial, The Panel also
considered that the Defendant did not contest the States case at fhe aggravation hearing and
presented no mitigating factors. This mitigating factor is found to exist and weighs in favor of the
Defendant.
2. The Defendant's childhood and family were dysfunctional. He was involved in the
juvenile court at a young age. This mitigating factor is found to exist and weighs m favor of the
Defendant.
3. The Defendant is not well educated. However, there is no evidence of a borderline

intellect or diminished cognitive ability. He clearly knows right from wrong. This mitigating factor
is found not to exist,
4. The Defendant takes medication for depression. However, there is no psychiatric or
psychological history of significance that rises to the level of a mitigatmg circumstance. There was
nothing to suggest that his depression contributed, in any way, to the actions taken by the
Defendant toward Mr. Berry. This raitigatiug factor is found not to exist
5. The record does not suggest that the Defendant has generally been a problem to officials
during his commitment However, his prior conduct during incarceration does not rise to the level
of a initigatmg factor. Tbis mitigating factor is found not to exist.

The fact that the Defendant expressly welcomes a death sentence has not been considered
by the Panel. It is the law, and not the Defendant's wishes> that compels this Panel's ultimate
condusiorL
In sum, the Panel does find that there are two non-statutory mitigating circumstances as to
the Defendant, as described above. Those factors have been considered by the Panel and while
applicable, have been given little weight. These two factors do not approach or exceed the weight
given to the aggravating circumstance. See Neb. Rev, Stat § 29-2522(2).
D. Proportionality
The Panel is required to determine the propriety of a death sentence by conducting a
proportionality review. Such sentence determination shall consider <<whetJier the sentence of death
1s excessive or disproportionate to the penalty imposed in similar cases, considering both the crime
and the defendant." Neb. Rev. Stat §29-2522(3). See Vela, supra, at 94; State v. Mata, 275 Neb.

1 (2008); State u Dunster, 262 Neb. 329 (2001). This review requires the Panel to compare the
aggravating and mitigatmg circumstances in the case before it with those present in other cases in
which a death penalty was imposed. The purpose of this review is to ensure that the sentences
imposed in fhis case are no greater fhan fhose imposed m other cases with the same or similar
circumstances.

The Nebraska Supreme Court has stated that:
[AJproportionality review does not require that a court "color
match" cases precisely. It would be virtually impossible to find two
murder cases which are the same in all respects. Instead, the question

is simply whether the cases being compared are sufficiently similar,
considering both the crime and the defendant, to provide the court
with a useful frame of reference for evaluating the sentence in this
^fr%^ ^_case.

State v. Ellis, 281 Neb. 571, 613-14 (2011) [internal citations omitted^

The Panel has undertaken a review of Nebraska cases in which the death penalty was
imposed as part of its proportionality review. The Panel has mapped and considered all cases
contained on Exhibit 35. It has also considered the opinion of the sentencing panel in State v.

Jefjkim, District Court of Douglas County, Case Nos. CR 13-2768 and CR 13-2769 (2017). This

10

case is currently on appeal to the Nebraska Supreme Court
I

The Panel first considered the Defendant's murder of Mr. Berry in relation to the murders
in other cases m which the death penalty was imposed. The Defendant thought Mr. Berry was
annoymg and unclean of habit. Mr. Berry was very close to release from prison, which the

Defendant knew. The fact that the Defendant did not give the kite found in the trash to the guards
suggests a piemeditative and depraved mentality. He did not ask that the victim b& moved. He did
not tell the guards that Mr. Berry was in mortal danger if he were not moved. The Defendant
calculated this murder for several days, choosing no method of obviating his annoyance with his
roommate. At the time of the murder, the Defendant set in motion a plan to commit the crime by
having Mr. Berry face away from him. He then strangled him with his ana and then a towel. The
Defendant did not call the guard to help with Mr. Berry*s injuries but to have him removed from
the cell. He evidences no remorse and the Panel finds nothing to suggest be is iaclined to change.
Mr. Berry's murder was disturbing in its own right and especially cruel, considering that Mr. Berry
was due to be released in a week; a fact the Defendant knew well.
After a complete review of the cases referenced above, the Panel unanimously concludes
that the murder of Mr. Berry, when compared directly to the murders in which the sentence of
death was unposedyEhat a sentence of death in this case wcmld not be excessive or disproportionate.

The Panel has also considered fbe relative proportionality of the prior conduct of
defendants who were sentenced to death. The Defendant now stands convicted of two murders.
Both appear to be premeditated, yet, there are any number of cases in which a defendant was
sentenced to death where the prior conduct did not involve the murder of another*
Dunsfer, supra, is the case most analogous to the case under review. Dunster had two prior
murder convictions. He was then convicted of murdering another inmate. Other cases involving
more than one murder have been closely scrutinized. See State v. Jones, 213 Neb 1 (1982); State

v. Joubert, 224 Neb. 41 1 (1986); State v. Ryan, 233 Neb. 74 (1989); ^/e v. Lotter, 255 Neb 456
(1998); and State v. Williams, 253 Neb. Ill (1997). All of these defendants were sentenced to
death.
For example, in State v. Hessler, 274 Neb. 478 (2007), Hessler was sentenced to death

based in part upon findings that he had a substantial history of serious assaultive or terrorizing

11

criminal activity, that the murder was committed in an effort to conceal the commission of a crime,
and that the murder was especially heinous, atrocious, cruel, or manifested exceptional depravity.
Hessler had not been convicted of a prior murder.
Joubert, supra, involved a defendant convicted of two counts of first degree murder for the
killings of two young boys. Joubert was sentenced to death in each case based partly on the findings
that he had a substantial history of serious assaultive or terrorizing criminal activity. Joubert had
not been convicted of a prior murder.
The Panel also notes that the death penalty was imposed in State v. Gales, 265 Neb. 598

(2003) and fyilHams^ supra. Gales was sentenced to death based on findings that he had previously
been convicted of a crime of violence as well as the particulars of the instant crime, but not of a
prior murder. And Williams had previously been convicted of a crime of violence, but not a
murder.

In summary, the Panel has conducted a thorough review of death penalty cases and
considered whether the "...sentence of death is excessive or disproportionate to the penalty
imposed in similar cases, considering both the crime and the defendant." Neb. Rev. Stat § 292522. The Panel has reviewed the nature of the murder in each case, as well as the past criminal
conduct of the defendants, which supported the ultimate finding that tl-ie death sentence was

A^

appropriate in each of these cases. The Panel concludes that t^6 sentence of death for the Defendant
is neither excessive nor disproportionate to the penalty imposed in similar cases.

V. CONCLUSIONS
First, the Panel finds that the State presented evidence, beyond a reasonable doubt, to

support the Defendant's plea of guilty and the finding of guilt.
Next, {he Panel finds, beyond a reasonable doubt, that the State has proven the aggravating
factor alleged.
Further, the Panel finds that, giving the Defendant the benefit of all inferences, there are
no statutory mitigating factors.
Further, the Panel finds the existence of two non-statutory mitigating factors; that the
weight of the non-statutory mitigating factors, giving the Defendant the benefit of all inferences,

12

does not approach or exceed the weight to be given to the aggravating factor and does not mitigate

against the finding of the aggravating factor alleged by fhe State.
Further, the Panel finds that a sentence of death is not excessive or disproportionate to the
penalty imposed in similar cases, considering the murder of Mr. Beny and the past crimes
committed by the Defendant.
AU findings are made unammously and beyond a reasonable doubt.

VI. SENTENCE
A. Imposed by the Panel: On Count I, Murder-First Degree, Neb. Rev. Stat. §28-303(1), a
Class I Felony, the Defendant is sentenced to death.

B. Imposed by the Presiding Judge: On Count II, Use of a Weapon to Commit a Felony, Neb.
Rev. Stat §28-1205(1), the Defendant is sentenced to not less than forty five, nor more
than fifty years, to run consecutively to Count I, and consecutively to the sentence imposed
in Case Nos. CR 06-5 and CR 06-6 in the District Court ofPawnee County, Nebraska.

The defendant is given no credit for time served. Costs of $232.34 are assessed to the
Defendant. The Defendant is committed to the Nebraska Department of Correctional
Services to serve his sentence. He is remanded to the custody of the Johjason County Sheriff
to commence his sentence.

J^

Dated this _^L day of June, 2018.

Robert Otte
District Court Judge

13

r^^f^^^

John Marsh
District Court Judge

pc: Doug Wamer, Todd Lancaster, Patrick Schroeder
Hon, Robert Otte, Hon. John Marsh

14

